                                                                      Office               Hotline

  Office of Inspector General                                         202.692.2900
                                                                      peacecorps.gov/OIG
                                                                      OIG Reports
                                                                                           202.692.2915 ‫ ׀‬800.233.5874
                                                                                           Online Contact Form
                                                                                           OIG@peacecorps.gov




To:            Carrie Hessler-Radelet, Acting Director
               Stacy Rhodes, Chief of Staff/Chief of Operations
               Daljit Bains, Chief Compliance Officer

From:          Kathy A. Buller, Inspector General

Date:          November 21, 2013

Subject:       Final Evaluation Report: Peace Corps Sexual Assault Risk-Reduction and
               Response Training (IG-14-01-E)

Transmitted for your information is our final report on the Evaluation of Peace Corps Sexual
Assault Risk-Reduction and Response Training.

Management concurred with all three recommendations. All three recommendations remain open
pending confirmation from the chief compliance officer that the documentation identified in
management’s response and OIG’s comments has been received. In its response, management
described actions it is taking or intends to take to address the issues that prompted each of our
recommendations. We wish to note that in closing recommendations, we are not certifying that
the agency has taken these actions or that we have reviewed their effect. Certifying compliance
and verifying effectiveness are management’s responsibilities. Our comments, which are in the
report as Appendix E, address these matters. Please respond with documentation to close the
remaining open recommendation within 90 days of receipt of this memorandum.

You may address questions regarding follow-up or documentation to Assistant Inspector General
for Jim O’Keefe at 202.692.2904 or to Lead Evaluator Jerry Black at 202.692.2912.

Please accept our thanks for your cooperation and assistance in our review.

Attachment

cc:     Elisa Montoya, White House Liaison/Senior Advisor to the Director
        Daryl Sink, Acting Associate Director for Safety and Security
        Carlos Torres, Acting Associate Director for Global Operations
        Brenda Goodman, Deputy Associate Director, Office of Health Services
        Helen Lowman, Associate Director, Office of Volunteer Recruitment and Selection
        Kellie Greene, Director, Office of Victim Advocacy
        Bill Rubin, General Counsel
        Dick Day, Regional Director, AF Operations
        Nina Favor, Acting Regional Director, IAP Operations
        Kathy Rulon, Acting Regional Director, EMA Operations
        Sarah Morgenthau, Director, Peace Corps Response
Sonia Stines Derenoncourt, Director, Overseas Programming and Training Support
Patricia Barkle, Deputy Chief Compliance Officer
      Peace Corps
      Office of Inspector General




          Final Evaluation Report:
Peace Corps Sexual Assault Risk-Reduction and
             Response Training
                 IG-14-01-E

                                  November 2013
                                     EXECUTIVE SUMMARY
BACKGROUND
On November 21, 2011, the President signed into law the Kate Puzey Peace Corps Volunteer
Protection Act of 2011 (Kate Puzey Act).1This Act requires the agency to provide
comprehensive sexual assault risk-reduction and response training to Volunteers that conforms to
best practices; develop and implement a comprehensive sexual assault policy; establish an Office
of Victim Advocacy (OVA) and a sexual assault advisory council (SAAC); and to undertake
other efforts to enhance Volunteer safety and security and the Peace Corps’ response to victims
of sexual assault. The Kate Puzey Act requires the Peace Corps Office of Inspector General
(OIG) assess agency compliance with these changes.

OIG must provide to Congress2 by November 21, 2013, reports on the status of the Kate Puzey
Act implementation:3

    1. An evaluation of the effectiveness and implementation of the sexual assault risk-
       reduction and response training.
    2. An evaluation of the effectiveness and implementation of the sexual assault policy,
       including a case review of a statistically significant number of cases.
    3. A report describing how Peace Corps representatives are hired, terminated, and how
       Peace Corps representatives hire staff, including an assessment of the implementation of
       performance plans.

OBJECTIVES
This evaluation report on sexual assault risk-reduction and response training for Volunteers
answers the following questions:

        Did the agency inform applicants about crimes and risks facing Volunteers?
        Did it provide applicants with all information required by the Kate Puzey Act?
        Was the Peace Corps’ sexual assault training comprehensive and in-line with best
         practices?
        Did the Peace Corps sufficiently consult with experts in the sexual assault field and
         incorporate their recommendations in the design of sexual assault training?
        Was sexual assault training tailored to the Volunteers’ country of service?
        Did Volunteers receive sexual assault training, and was the training effective?




1
  Kate Puzey Peace Corps Volunteer Protection Act of 2011, Pub. L. No. 112-57, 125 Stat. 736 (2011).
2
  OIG must provide reports to the Committees on Foreign Relations and Appropriations of the Senate and the
Committees on Foreign Affairs and Appropriations of the House of Representatives.
3
  Pursuant to the Kate Puzey Act, in November 2012, OIG provided Congress with a report on allegations or
complaints received from Volunteers relating to misconduct, mismanagement, or policy violations of Peace Corps
staff, any breaches of the confidentiality of Volunteers, and any actions taken to assure the safety of Volunteers who
provide such reports. OIG is required to submit such reports biennially through September 30, 2018.


Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training                            i
RESULTS IN BRIEF
OIG reviewed the information the Peace Corps provided to applicants and found that it provided
much of the information required by the Kate Puzey Act. For instance, the Peace Corps provided
OIG’s contact information to trainees at multiple points in the application and staging process. It
provided sexual assault training to all 27-month Volunteers. Sexual assault training conformed to
existing best practices in the sexual assault field, and addressed each of the training topics
specified under section 8A(c) at an appropriate level of detail.

However, at the time that fieldwork was conducted for this evaluation, the agency had not issued
its policies and procedures related to Sexual Assault Response Liaisons (SARLs), or restricted
and unrestricted reporting.4 Additionally, the agency was piloting a sexual assault hotline at
seven posts, and had not yet made a hotline available to all Volunteers. As a result, contact
information for SARLs, the 24-hour sexual assault hotline, and guidelines regarding restricted
reporting procedures following an assault were not provided to applicants.5 When these policies
and procedures have been issued the agency will need to update its written guidelines and
provide applicants with the required information and training.

The Peace Corps did not provide applicants with consistent, current crime and risk information.
The Office of Safety and Security (SS) had initiated a new process to distribute crime and risk
information to applicants beginning in June 2013. The new process, if implemented effectively,
should provide applicants with more complete and current crime and risk information to review
prior to accepting the agency’s invitation to serve in a particular country. The agency did not
consistently provide sexual assault training to Peace Corps Response Volunteers (PCRVs), who
complete shorter term assignments and do not enter training at the same time as most 27-month
Volunteers.

It was not possible for this evaluation to fully assess the effectiveness of sexual assault training.
Field work for the evaluation occurred soon after the agency began implementing standardized
sexual assault training. Key aspects of the sexual assault policy had not been issued and thus
Volunteers had not received the corresponding training. More time is needed to all to allow the
agency to measure the effectiveness of sexual assault training. The Kate Puzey Act requires us to
provide Congress a follow-up report in 2016. That report will provide more information and
analysis on the effectiveness of sexual assault training.

RECOMMENDATIONS
Our report contains three recommendations, which, if implemented, should strengthen the sexual
assault training provided to Volunteers, as required by the Kate Puzey Act, and correct the
deficiencies detailed in this report.




4
  Our review of the implementation of sexual assault policies required by the Kate Puzey Act, which includes
additional discussion of the status of these policies and procedures, is presented in a separate report to be available
by November 2013.
5
  Restricted reporting allows a Volunteer to confidentially disclose the details of an assault to specified individuals
and receive services without automatically triggering an official investigative process.


Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training                                  ii
                                             TABLE OF CONTENTS

EXECUTIVE SUMMARY .................................................................................................................... i

BACKGROUND AND EVALUATION OBJECTIVES ..............................................................................1

EVALUATION RESULTS ....................................................................................................................4
          PROVISION OF REQUIRED INFORMATION TO APPLICANTS ................................................................................4

          DEVELOPMENT OF SEXUAL ASSAULT RISK-REDUCTION AND RESPONSE TRAINING ...................................... 10

          IMPLEMENTATION AND EFFECTIVENESS OF SEXUAL ASSAULT TRAINING ...................................................... 18


OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................................................22

INTERVIEWS CONDUCTED .............................................................................................................24

LIST OF RECOMMENDATIONS .......................................................................................................26

APPENDIX A: LIST OF ACRONYMS ................................................................................................27

APPENDIX B: EXAMPLE OF A POST CRIME PROFILE ...................................................................28

APPENDIX C: SUMMARY OF SEXUAL ASSAULT TRAINING...........................................................32

APPENDIX D: AGENCY’S RESPONSE TO THE PRELIMINARY REPORT .........................................33

APPENDIX E: OIG COMMENTS .....................................................................................................36

APPENDIX F: EVALUATION COMPLETION AND OIG CONTACT..................................................38
             BACKGROUND AND EVALUATION OBJECTIVES
The Kate Puzey Act
On November 21, 2011, the President signed into law the Kate Puzey Act of 2011. The Act was
named in honor of Kate Puzey, a Peace Corps Volunteer who died while serving in Benin in
2009. This Act established requirements for the agency to provide comprehensive sexual assault
risk-reduction and response training to Volunteers; develop a sexual assault policy; establish an
OVA and a SAAC; and undertake other related efforts to enhance Volunteer safety and security
and the Peace Corps’ response to victims of sexual assault.

The Kate Puzey Act requires the agency to provide sexual assault training to all Volunteers:
                                sexual assault risk-reduction and response training

                Sec. 8A. (a) In General.--As part of the training provided to all volunteers under section 8(a), the
         President shall develop and implement comprehensive sexual assault risk-reduction and response
         training that, to the extent practicable, conforms to best practices in the sexual assault field.
                 (b) Development and Consultation With Experts.--In developing the sexual assault risk-reduction
         and response training under subsection (a), the President shall consult with and incorporate, as
         appropriate, the recommendations and views of experts in the sexual assault field.
                (c) Subsequent Training.--Once a volunteer has arrived in his or her country of service, the
         President shall provide the volunteer with training tailored to the country of service that includes cultural
         training relating to gender relations, risk-reduction strategies, treatment available in such country
         (including sexual assault forensic exams, post-exposure prophylaxis (PEP) for HIV exposure, screening
         for sexually transmitted diseases, and pregnancy testing), MedEvac procedures, and information
         regarding a victim's right to pursue legal action against a perpetrator.
                (d) Information Regarding Crimes and Risks.--Each applicant for enrollment as a volunteer shall
         be provided with information regarding crimes against and risks to volunteers in the country in which the
         applicant has been invited to serve, including an overview of past crimes against volunteers in the
         country.
                (e) Contact Information.--The President shall provide each applicant, before the applicant enrolls
         as a volunteer, with--
                     (1) the contact information of the Inspector General of the Peace Corps for purposes of
         reporting sexual assault mismanagement or any other mismanagement, misconduct, wrongdoing, or
         violations of law or policy whenever it involves a Peace Corps employee, volunteer, contractor, or
         outside party that receives funds from the Peace Corps;
                     (2) clear, written guidelines regarding whom to contact, including the direct telephone
         number for the designated Sexual Assault Response Liaison (SARL) and the Office of Victim Advocacy
         and what steps to take in the event of a sexual assault or other crime; and
                     (3) contact information for a 24-hour sexual assault hotline to be established for the purpose
         of providing volunteers a mechanism to anonymously--
                             (A) report sexual assault;
                             (B) receive crisis counseling in the event of a sexual assault; and
                             (C) seek information about Peace Corps sexual assault reporting and response
                     procedures.




Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training                            1
The Peace Corps’ Application Process
According to the Peace Corps Act, an applicant for enrollment (hereafter, “applicant”) becomes a
Volunteer upon taking an oath of office.6 The oath is administered to applicants who successfully
complete pre-service training (PST). For the Peace Corps to comply with the Kate Puzey Act, it
must provide each applicant with the above-specified information in sections 8A (d) and (e)
before the applicant is sworn in formally as a Volunteer.

Applicants who meet eligibility and suitability requirements receive an invitation from the Peace
Corps to a specific Volunteer assignment. Applicants who accept their invitations attend a one-
day orientation, referred to as staging, immediately prior to travelling to their country of service.
After staging, applicants travel to their country of service for an eight to 12 week PST program
before being sworn in as Volunteers.

History of Sexual Assault Training at the Peace Corps
The Peace Corps has trained Volunteers for many years using country-specific safety and
security training sessions, including trainings specifically addressing sexual assault. Based on a
March 2008 survey of the sexual assault awareness training provided to Volunteers, the agency
recognized the need for a standardized Volunteer sexual assault training and began to solicit
expert and staff feedback on what should be included in that training. The Peace Corps
established the Sexual Assault Working Group7 to review existing training and provide input into
how the agency should better prepare applicants and Volunteers to reduce their risk of assault. In
2010, a year prior to the passage of the Kate Puzey Act, the Peace Corps had begun to develop
standardized sexual assault training.

Sexual Assault Advisory Council
The Kate Puzey Act mandated that an independent panel of subject matter experts review the
Peace Corps’ sexual assault training for use of best practices. A SAAC was consequently
established. The Kate Puzey Act specified that the SAAC would “review the sexual assault risk-
reduction and response training developed under section 8A…to ensure that such training and
policy conform to the extent practicable to best practices in the sexual assault field.”8 In
November of 2012, the SAAC included 10 individuals with expertise in sexual assault risk-
reduction and response, medical treatment protocols, training and education, and sexual assault
prevention. The SAAC reviewed the Peace Corps’ sexual assault training modules and facilitator
guides in the summer of 2012 and published its first report in November 2012. Its findings are
referenced throughout this report.




6
  The Peace Corps Act, Sec 2504j. Oath of office. “Upon enrollment in the Peace Corps, every volunteer shall take
the oath prescribed for persons appointed to any office of honor or profit by section 3331 of title 5.”
7
  This internal working group is currently called the IDEAL council.
8
  Kate Puzey Volunteer Protection Act of 2011 section 8D subsection c.


Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training                            2
OIG Reporting Requirements in the Kate Puzey Act
To fulfill oversight requirements, OIG must report to Congress by November 21, 2013 on the
status of the Kate Puzey Act implementation.9 OIG is providing the following in three reports:

    1. An evaluation of the effectiveness and implementation of the sexual assault risk-
       reduction and response training.
    2. An evaluation of the effectiveness and implementation of the sexual assault policy,
       including a case review of a statistically significant number of cases.
    3. A report describing how Peace Corps representatives are hired, terminated, and how
       Peace Corps representatives hire staff, including an assessment of the implementation of
       performance plans.

This report fulfils the requirement to evaluate the effectiveness and implementation of the sexual
assault and risk-reduction and response training.

Evaluation Objectives
This evaluation report answers the following questions:

       Did the agency inform applicants about crimes and risks facing Volunteers?
       Did it provide applicants with all information required by the Kate Puzey Act?
       Was the Peace Corps’ sexual assault training comprehensive and in-line with best
        practices?
       Did Peace Corps sufficiently consult with experts in the sexual assault field and
        incorporate their recommendations in the design of sexual assault training?
       Was sexual assault training tailored to the Volunteers’ country of service?
       Did Volunteers receive sexual assault training, and was the training effective?




9
 OIG must provide reports to the Committees on Foreign Relations and Appropriations of the Senate and the
Committees on Foreign Affairs and the Appropriations of the House of Representatives.


Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training                    3
                                      EVALUATION RESULTS
PROVISION OF REQUIRED INFORMATION TO APPLICANTS

OIG reviewed information provided to applicants and found that the agency provided most of the
information required by the Kate Puzey Act. The agency provided information to applicants on
multiple occasions. Each invitation package contained country-specific information, including
information regarding crimes and risks. Invitation materials included information about OIG as
well as clear, written guidelines regarding whom to contact and what steps to take in the event of
a sexual assault or crime. The agency provided these written guidelines to applicants in the Peace
Corps Volunteer Handbook and the document, Safety and Security Highlights to Help You
Prepare for Peace Corps Service. At stagings, the agency provided applicants with Kate Puzey
Act-required information, including the direct telephone number for the Office of Victim
Advocacy and information about OIG. During PST, applicants participated in sexual assault risk-
reduction and response training that explained whom to contact and what steps to take in the
event of a sexual assault.10

Figure 1 below shows which information was provided to applicants and when they received it.
The findings that follow will discuss in detail the information that was or was not provided.

                             Figure 1. Information Provided to Applicants




10
  The training session included a presentation on whom to contact and what steps to take in the event of a sexual
assault or crime. OIG was unable to verify that all applicants received the information in that presentation in the
form of “clear, written guidelines.” However, as noted above, each applicant received these guidelines in their
invitation materials.


Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training                              4
The Peace Corps did not provide consistent, current crime and risk information to each
applicant.

The Kate Puzey Act directs the agency to provide each applicant with information regarding
crimes and risks:
         Information Regarding Crimes and Risks.--Each applicant for enrollment as a volunteer shall be provided
         with information regarding crimes against and risks to volunteers in the country in which the applicant has
         been invited to serve, including an overview of past crimes against volunteers in the country (Kate Puzey
         Act § 8A(d)).

An external expert interviewed by OIG emphasized the importance of providing applicants with
crime and risk information in their country of service prior to their arrival in the country. The
timing for providing crime and risk information is important so that applicants are aware of and
consider the conditions and potential risks of service before they accept an invitation and attend
staging. When the Peace Corps formally invites an applicant to a specific Volunteer assignment,
the agency provides the applicant with a welcome book that contains information on a variety of
topics and helps applicants understand their country of service and prepare for their experience
overseas. Under the topic of safety and security, welcome books provide information regarding
crimes and risks in the country of service.

OIG reviewed the crime and risk data provided to applicants in a sample of 24 welcome books.
Each welcome book contained a chart showing the average annual incidence rates of six major
types of crimes reported by Volunteers over a period of four years. The rates at the post were
compared to the average rates of other programs in the same region as a whole.11 Most welcome
books included additional information pertaining to risks and other safety concerns specific to
the country of service.

We found that most of the country-specific crime data provided to applicants was outdated and
the detail and specificity of the risk information was inconsistent. At the time of our evaluation
fieldwork, the agency’s most recent available country-specific crime data was from 2011, yet
only one of the 24 welcome books we reviewed provided crime data from 2011. More than half
of the welcome books provided crime data that was four to eight years old or older. Figure 2
below shows an example of outdated crime data provided to applicants from one of the welcome
books in our sample.




11
  Incidence rates indicate the number of crime events relative to the Volunteer/trainee population rather than the
total number of crimes.


Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training                               5
          Figure 2. Outdated Crime Data Provided to Applicants (as of April 2013)12




Source: Peace Corps/Morocco Welcome Book

Table 1 shows, from our sample, the incident years and age of country-specific crime data the
agency provided to applicants as of April 2013.

                                 Table 1. Welcome Book Crime Data
Incident Years for         2002-2006      2003-2007      2004-2008      2005-2009 2006-2010         2007-2011
Cited Crime Data
Number of Welcome               1              3              2              9             8             1
Books
Percentage of                  4%             13%            8%            38%           33%            4%
Welcome Books
Age of Crime Data          7-11 years     6-10 years      5-9 years      4-8 years     3-7 years     2-6 years


The welcome book template included standardized language regarding factors that contribute to
Volunteer risk. Most welcome books also provided additional information pertaining to risks and
other safety concerns specific to the country of service. However, the detail and specificity of the
risk information varied greatly. Some welcome books provided a few comments about risks to
avoid in the capital city, while others provided several pages of information describing risk
factors related to crime, transportation, alcohol abuse, cultural norms, political tensions, or
natural disasters. Six of the 24 welcome books we reviewed contained only the standardized
language in all welcome books about risks of Volunteer service and did not provide applicants

12
  The chart in Figure 2 compares average annual incidence rates in Morocco from 2004-2008 compared to all other
Europe, Mediterranean, and Asia Region programs as a whole.


Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training                      6
with any additional information about risks specific to the country of service.13 Missing,
inadequate, and outdated information may leave an applicant with an incomplete or partial
understanding of the potential risks or safety concerns in the country they have been invited to
serve.

Staff reported that lack of oversight in addition to delays with the revision process impaired the
quality of welcome book information. Our review found that multiple staff was involved in
revising and updating welcome books including staff at posts, regional staff, and staff in the
Office of Communications. However, staff was unsure which office had primary responsibility
for ensuring the quality of welcome book content. No controls were in place to ensure that each
welcome book contained adequate and current crime and risk information. Staff reported that
lengthy delays were caused by staff resource constraints and competing priorities. As a result,
welcome books were irregularly updated.

Fewer than half of the 24 welcome books we reviewed (11 of 24) had been updated in 2012 and
three of those still included crime data that was four to eight years old. Table 2 shows when the
welcome books we sampled were last updated.

                                   Table 2. Welcome Book Revisions
                    Date of Last Revision          2008      2009     2010      2011     2012
                    Number of Welcome               1         3        2         7        11
                            Books
                   Percentage of Welcome            4%       13%       8%       29%      46%
                            Books

SS was aware of inconsistencies with crime and risk data provided in welcome books. In June
2013 the office had initiated a new process to distribute crime and risk information to applicants.
The new process should enable SS to develop a crime profile for each country and update it
annually using the previous year’s statistical crime data.

A sample of the new crime profile provided to OIG included twice as many types of crimes as
previously shown (see Appendix B). The information included numbers and rates of crime per
country, along with regional and global averages for comparison. In addition to statistical charts,
the profile included a bullet point analysis of key crime data that highlighted risks such as where
incidents occurred and which serious crimes were most likely to affect Volunteers. The profiles
would be accessed by applicants through a link placed into welcome books. SS would maintain
ownership of the data and ensure quality control. The new process, if implemented effectively,
should provide applicants with more complete, adequate, and recent crime and risk information
to review prior to accepting the agency’s invitation to serve in a particular country.




13
  OIG had previously identified issues with standardized risk information provided in welcome books. The 2008
OIG Program Evaluation, Volunteer Safety and Security IG-08-13-E, found that standardized risk information
provided in welcome books reduced the accuracy and relevancy of the risk information because global safety and
security risks sometimes differed from country-specific risks.


Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training                         7
                 We recommend:

                 1. That the associate director for the Office of Safety and
                    Security put procedures in place to ensure that at the time
                    applicants receive their invitation for service, all have
                    received the most recent information on crimes and risks
                    specific to their country of service.


The Peace Corps provided applicants with contact information for the Office of the Inspector
General.

The Kate Puzey Act directs the agency to provide each applicant with contact information for the
Office of the Inspector General:

        The contact information of the Inspector General of the Peace Corps for purposes of reporting sexual
        assault mismanagement or any other mismanagement, misconduct, wrongdoing, or violations of law or
        policy whenever it involves a Peace Corps employee, volunteer, contractor, or outside party that receives
        funds from the Peace Corps (§ 8A(e)(1)).

Our review of information provided to applicants showed that the Peace Corps fully complied
with this requirement. The agency provided each applicant with OIG contact information at
multiple points in the application and staging process. Peace Corps applicants received an
invitation email that included a hyperlink to another document, “Safety and Security Highlights
to Help You Prepare for Peace Corps Service,” with the OIG hotline information including:
email address, phone and FAX numbers. The invitation email also had a hyperlink to the Peace
Corps Volunteer Handbook, which described the role of OIG and provided information about
reporting allegations of wrongdoing and violations of law. The handbook entry also included the
OIG hotline information including: email, web address, phone numbers, and mailing address.

Applicants who accepted their invitation to service received another email with information
about their staging. The staging email had a hyperlink to an online training course called
Orientation to Safety and Security, which included information about reporting allegations of
misconduct or violations of law or policy to OIG. The course listed OIG’s hotline information
including email and phone numbers. During staging, applicants received a staging workbook
with a description of OIG’s role and hotline information.

Volunteers invited to serve through the Office of Peace Corps Response (PCR)14 received an
invitation/welcome email with hyperlinks to the Orientation to Safety and Security course and
the Peace Corps Volunteer Handbook, both of which included OIG information.




14
  Peace Corps Response provides qualified professionals the opportunity to undertake short-term assignments in
various programs around the world.


Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training                            8
Contact information for SARLs, the 24-hour sexual assault hotline, and guidelines regarding
restricted reporting procedures following an assault were not provided to applicants.

The Kate Puzey Act directs the agency to provide each applicant with clear, written guidelines in
the event of a sexual assault or other crime:

         Clear, written guidelines regarding whom to contact, including the direct telephone number for the
         designated Sexual Assault Response Liaison (SARL) and the Office of Victim Advocacy and what steps to
         take in the event of a sexual assault or other crime (§ 8A(e)(2)).

The Kate Puzey Act also defines reporting procedures that should be included in clear, written
guidelines the agency must provide to applicants regarding what steps to take in the event of a
sexual assault or other crime.
         (2) Restricted reporting--
                 (A) In general.--The term ‘restricted reporting’ means a system of reporting that allows a volunteer
         who is sexually assaulted to confidentially disclose the details of his or her assault to specified individuals
         and receive the services outlined in section 8B(c) without the dissemination of his or her personally
         identifying information except as necessary for the provision of such services, and without automatically
         triggering an official investigative process (§ 8A(f)(2)).

It also requires the agency to provide each applicant with contact information for a 24-hour
sexual assault hotline:

         …for the purpose of providing volunteers a mechanism to anonymously--(A) report sexual assault; (B)
         receive crisis counseling in the event of a sexual assault; and (C) seek information about Peace Corps
         sexual assault reporting and response procedures (§ 8A(e)(3)).

According to an external expert interviewed by OIG, predictability and preparation are a sexual
assault response best practice. The expert described the practice as, “preparing people for the
possibility that [a sexual assault] could happen and establishing a predictable process for what
happens afterward.” Our review of information provided to applicants revealed that the agency
provided written guidelines to applicants regarding whom to contact and what steps to take in the
event of a sexual assault or other crime. These guidelines located in the Peace Corps Volunteer
Handbook and the document, “Safety and Security Highlights to Help You Prepare for Peace
Corps Service.” The telephone number for the OVA was provided to applicants during staging.
Volunteers invited to serve through PCR received a pre-departure email that included OVA
contact information.

However, at the time that fieldwork was conducted for this evaluation, the agency had not issued
its policies and procedures related to SARLs, or restricted and unrestricted reporting.15
Additionally, the agency was piloting a sexual assault hotline at seven posts, and had not yet
made a hotline available to all Volunteers. As a result, the agency had not provided applicants
with information about SARLs, restricted or unrestricted reporting, or the sexual assault hotline.
When these policies and procedures have been issued the agency will need to update its written
guidelines and provide applicants with the required information and training.
15
  Our review of the implementation of sexual assault policies required by the Kate Puzey Act, which includes
additional discussion of the status of these policies and procedures, is presented in a separate report to be available
by November 2013.


Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training                                   9
DEVELOPMENT OF SEXUAL ASSAULT RISK-REDUCTION AND RESPONSE TRAINING

The Kate Puzey Act requires the Peace Corps to “develop and implement comprehensive sexual
assault risk-reduction and response training that, to the extent practicable, conforms to best
practices in the sexual assault field.” It specifies that in developing its sexual assault training the
Peace Corps “shall consult with and incorporate, as appropriate, the recommendations and views
of experts in the sexual assault field.”

To evaluate whether the Peace Corps included best practices and expert consultation in designing
its sexual assault training, OIG reviewed the best practices documentation provided by the Peace
Corps, conducted its own literature review of best practices, and reviewed the SAAC’s report.
We also interviewed staff at 24 Peace Corps posts and seven experts in the field of sexual assault
risk-reduction and response.

To ensure the quality of its sexual assault training, SS engaged a sexual assault expert with Peace
Corps leadership experience both at headquarters and overseas posts to facilitate the design of
the Peace Corps’ overall sexual assault risk-reduction and response program, including training
for Volunteers. Peace Corps designed, revised, and piloted sexual assault training from
November 2010 to July 2011. The resulting training modules incorporated expert feedback on
best practices, including ensuring that the language was not victim-blaming. In October of 2011,
before the Kate Puzey Act was signed into law, the deputy director instructed all posts to provide
standardized sexual assault training (see Figure 3 below). In the design process, the agency
sought input from agency personnel with relevant expertise, consulted with external sexual
assault experts and relied upon other resources and literature. SS employed a professional
evaluator to monitor and evaluate the sexual assault program, with part of that evaluation
focused on measuring the effectiveness of the training and on determining how to improve it in
the future.

    Figure 3. Timeline of Development and Implementation of Sexual Assault Training




Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training             10
The Peace Corps’ sexual assault training conforms to best practices in the sexual assault field.

We reviewed the sexual assault training provided to Volunteers and assessed that it conforms to
existing best practices in the sexual assault field.16 We compared the training to guiding
principles articulated by Centers for Disease Control and Prevention (CDC) for sexual assault
training and found that it incorporated those principles (see Figure 6). Additionally, six experts
familiar with the Peace Corps’ training asserted that the sexual assault training modules conform
to professionally recognized training techniques and content. In developing these trainings, the
Peace Corps made a substantial effort not only to incorporate emerging best practices but also to
adapt them to the Peace Corps context. One unique feature of the context for sexual assault
training at the Peace Corps was explained by one of the designers of the agency’s sexual assault
training:

         We can’t reach the offenders, so we don’t use the term “prevention.” All we can do is create a situation
         where there is the least amount of risk as possible. This is why we talk about risk-reduction, not prevention.
         We don’t have any control over the offender base.

The Peace Corps’ sexual assault training includes four standard modules that all posts are
required to deliver to applicants for enrollment in the Peace Corps before they take the oath to
serve as Volunteers (see Appendix C for a summary of sexual assault training and best
practices):

        Personal Security and Risk-Reduction;
        Sexual Assault Awareness;
        Sexual Assaults: Impact, Reporting, and Response; and
        Bystander Intervention Training.

The trainings are designed to provide trainees with skills to reduce their risk of sexual assault,
information on the impact of sexual assault on the individual, and information on how Peace
Corps responds to victims of sexual assault.

The agency provided strict guidance to trainers on how the modules should be delivered: “To
ensure that all trainees and Volunteers get the same information, it is critical that the Facilitator
follow this session plan as presented here. Do not add or omit anything or otherwise deviate from
the curriculum.” Overall, the agency designed sexual assault training modules to ensure that
Volunteers at all posts received the same baseline information and skills necessary to reduce
their risk of sexual assault. We found that training staff was diligent about adhering to the
curriculum as it was written. In addition, the sexual assault training modules include activities
that can be tailored to address country-specific information including, for example, local
transportation risks, or local cultural norms for how men and women interact.

One skill Volunteers learn during these trainings is RADAR. RADAR stands for Recognize the
danger, Assess the situation, Decide what’s best for you, Act when the timing is right, and
Reassess as the situation changes. Trainees learn RADAR in the Personal Security and Risk-

16
  For the purposes of our report, “best practice” is defined as practices confirmed to be effective by experts or
guidance by organizations confirmed as leaders in the field of sexual assault risk reduction and response.


Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training                            11
Reduction module, the first of four sexual assault training modules delivered to trainees during
PST. RADAR was designed to equip Volunteers with an easy to recall phrase that evokes the
importance of being alert and vigilant to risks in their environment. Posts are encouraged to
continue to refer to and reinforce RADAR in subsequent safety training sessions as appropriate,
including sessions not directly related to sexual assault.

Many staff reported that they found RADAR to be effective and observed volunteers applying
the tool in the field.

       The personal security session strength is RADAR. Volunteers use this skill all over after this. In the taxi
       they use it; at a party they use it. This is a truly important tool not just for Volunteers but also for staff.

       The RADAR model, the personal security and risk-reduction was a really great one… Volunteers are using
       this.

       They use the word RADAR to recognize danger. [In one instance] Volunteers in a bar saw a female talking
       to a male and they said RADAR and she [understood] without creating issues.

In the second of the four modules, Sexual Assault Awareness, the trainer facilitates an activity
designed to generate group discussion and reflection about the sorts of verbal and physical cues
or signals people in different cultures look for to understand when someone is interested in
having sex. The purpose of this activity is to talk openly with trainees about how personal
behavior and appearance may send a signal to someone in another culture that was not intended,
and lead to an unwanted sexual advance.

      Figure 4. Sample Slides from Peace Corp’s Sexual Assault Awareness Training


         What Signals Would a Man or            What Signals Would a Man or
         Woman in Your Culture GIVE to              Woman in Your Culture
         Someone to Show That They Are           LOOK FOR to Know That
            Interested in Having Sex?           Another Person is Interested in
                                                        Having Sex?




Our interviews with overseas staff that had facilitated this exercise confirmed that most viewed
this as a best practice based on the effectiveness of the activity:

       This – sex signals exercise – is interesting and important. The Volunteers loved this exercise…It brought
       several to tears. Huge impact. Volunteers felt this was very important to their experience [here],
       specifically what signals they could be sending.

       Yes that is a very powerful activity actually. It gets everyone really thinking and talking and kind of
       amazed actually.




Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training                                 12
Experts also confirmed that they found this exercise particularly effective:

       I think they addressed [cross-cultural issues]. [The sex signals activity] is very effective with all the people
       in the room.

       [We] also talked about other language cues and dating boundaries, some of the cultural differences that can
       lead to misunderstandings…knowing the cultural boundaries is so important, especially for Peace
       Corps. [We] saw that it was going to be very important to have a local person there to help contextualize
       the training, to provide insight into local norms and behaviors that Volunteers needed to understand. So this
       is the conversation that led to the understanding that host country nationals needed to be trained and
       included in some of the sexual assault training sessions.

The Sexual Assault: Impact, Reporting, and Response (SAIRR) training module focuses on
presenting the impact of sexual assaults on victims as well as the Peace Corps’ response to
sexual assaults at posts. One particularly important piece of this module is an explanation of
what steps to take in the case of a sexual assault and what the Peace Corps’ response will be. One
expert in victim response we interviewed emphasized that establishing clear response procedures
before an incident occurs is a best practice:

       [One best practice is] predictability and preparation – preparing people for the possibility that this could
       happen and establishing a predictable process for what happens afterward… and teach all Volunteers so
       they can help each other. They can remind their friends and support them after something happens.

A widely-used and expert-endorsed program incorporated into the sexual assault training is
Bystander Intervention Training (BIT). Adopted by hundreds of universities around the country
and the U.S. Department of Defense, BIT trains Volunteers on how to safely intervene on behalf
of a fellow Volunteer in order to remove them from a risky situation. The training includes
instruction, specific tactics, and scenarios for Volunteers to practice their new skills. The BIT
module includes another best practice described by experts: training on identifying behaviors of
sexual predators to identify risky situations.

                      Figure 5. Sample Slides from Bystander Intervention Training
          Why Are We Here?                                  Key Points                                            Assessing Behavior – Red Flags
              Analyze the Bystander Phenomenon, what          It may be hard to step up but it can make         Sexual Predators:
               it is and why it occurs.                         a big difference.                                  Intentionally try to charm their targets
                                                                                                                   Encourage them to drink alcohol
              Assess when and how to intervene.               One person’s intervention can cause a              Try to isolate them from others
                                                                chain reaction for others to help as well.         Don’t accept “no” for an answer
              Develop ways to safely intervene in                                                                 Test boundaries to measure resistance
               inappropriate and potentially harmful           Use RADAR and always consider your                 Attempt to control their target
               situations.                                      own safety when intervening.
                                                                                                                   Display violence or temper

                                                       3                                                    5                                                6




Multiple experts confirmed BIT as a best practice:

       BIT is definitely an emerging area of best practice.

       BIT is a best practice--it’s an evolving best practice. It’s evidence-based.

       BIT is the direction to go and absolutely a best practice.




Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training                                                                            13
Additionally, interviews with overseas staff indicated that it believes BIT is valuable and
important based on staff’s experience and feedback from Volunteers:

        BIT gave skills that weren’t available before… I facilitated BIT and Volunteers found it very good and
        engaging. They could really relate to the training and even…one volunteer said she could have helped a
        friend if she had had the training before.

        We feel that from the moment we did that BIT we moved from a culture of a few brave volunteers
        intervening to this is the expectation and we do work together...it got volunteers to understand that it is
        necessary to report certain things. Volunteers have brought things to my attention that happened in the past.
        The key is it is happening earlier, Volunteers had seen certain issues with Volunteers in the past, like heavy
        drinking, and they were worried about the Volunteer’s safety and came to us, we hear about things earlier
        now.

The Peace Corps conducted multiple feedback sessions with staff and experts about the scripts
that Peace Corps staff read during the sexual assault training modules. Experts confirmed that the
scripts were carefully crafted to not be victim-blaming in its language, an important best practice
in sexual assault training. The modules also incorporate principles highlighted by CDC as
important for effective sexual assault trainings (see Figure 6 below).

    Figure 6. CDC Principles Incorporated into Peace Corps’ Sexual Assault Trainings

                   Comprehensive: Strategies include multiple components and affect multiple
                    settings to address a wide range of risk and protective factors of the target
                    problem.
                   Varied Teaching Methods: Trainings include multiple teaching methods,
                    including multiple active, skills-based components.
                   Sufficient Dosage: Trainings are of sufficient length the activity for it to
                    have an effect.
                   Theory Driven: Preventive strategies should have a scientific justification or
                    logical rationale.
                   Appropriately Timed: Program activities occur during PST, allowing
                    volunteers to apply those skills throughout service.
                   Socio-Culturally Relevant: Trainings are geared to the volunteer context and
                    are sufficiently tailored to the country of service.
                   Outcome Evaluation: Peace Corps is implementing a rigorous outcome
                    evaluation program for review of the effectiveness of the training.
                   Well-Trained Staff: Staff reported they were well trained on the delivery of
                    the sexual assault training.
                

In its November 2012 report to Congress, the SAAC concluded that the Peace Corps developed
and implemented comprehensive sexual assault training that conformed to best practices, “The
Council assesses that Peace Corps’ Risk-Reduction and Response training conforms to best
practices in the field.” It is important to note that best practices in the field of sexual assault risk-
reduction and response continue to evolve. Accordingly, “The Council would like to note that
while there are recognized standards for providing care to victims of crime, best practices in the
field of sexual assault are fluid, as the understanding of how to effectively respond to victims
continuously evolves.” CDC also acknowledges the lack of certainty surrounding best practice,
“Unfortunately, little is known about what works to prevent sexual violence. To date, only one



Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training                           14
prevention program, “Safe Dates,”17 has been shown in a randomized controlled trial to prevent
or interrupt sexual violence perpetration.”

Given that best practices in the field of sexual assault are evolving with practice, the Peace Corps
should continue to consult with experts to adapt its training as necessary. Additionally, both
experts and CDC emphasize that monitoring and evaluation is important for maintaining
effectiveness of sexual assault risk-reduction and response programs. The Peace Corps had
assigned a professional evaluator to monitor the sexual assault program and base future
modifications of the training on evidence gathered through ongoing monitoring and evaluation
activities.

Sexual Assault training contained all the elements required in Section 8A(c) of the Kate Puzey
Act.

Section 8A(c) of the Kate Puzey Act describes specific sexual assault training topics that the
Peace Corps must provide to Volunteers:

         Subsequent Training.--Once a volunteer has arrived in his or her country of service, the President shall
         provide the volunteer with training tailored to the country of service that includes cultural training relating
         to gender relations, risk-reduction strategies, treatment available in such country (including sexual assault
         forensic exams, post-exposure prophylaxis (PEP) for HIV exposure, screening for sexually transmitted
         diseases, and pregnancy testing), MedEvac procedures, and information regarding a victim's right to pursue
         legal action against a perpetrator.

OIG reviewed the sexual assault training module presentations and facilitator scripts to identify
whether all the elements required under section the 8A subparagraph were included. We
determined that the Peace Corps’ sexual assault training addressed each of the training topics
required under section 8A(c) of the Kate Puzey Act at a sufficient and appropriate level of detail.




17
   “Safe Dates” is a program designed to teach middle and high school students how to develop healthy
relationships. Due to the difference in target audience, the OIG concluded its practices are not relevant in a Peace
Corps context.


Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training                               15
Table 3 shows which sexual assault training modules address the required training topics.

               Table 3. Volunteer Training Requirements in the Kate Puzey Act
      Training Topic Required by § 8A(c)                          Peace Corps Sexual Assault Training
Cultural Training Related to Gender Relations              The Sexual Assault Awareness module includes an
                                                           exercise where host country staff compares
                                                           country-specific sex signals to U.S. sex signals,
                                                           instructing Volunteers on how to avoid sending
                                                           inappropriate signals.
Risk-Reduction Strategies                                  The Personal Security and Risk-Reduction module
                                                           provides Volunteers with tools for avoiding and
                                                           mitigating risk. Additionally, it instructs the session
                                                           presenters to “…be prepared to discuss effective
                                                           strategies to mitigate the risk posed to
                                                           Volunteers… especially strategies that are specific
                                                           and appropriate to the culture and society.”
Treatment Available in such Country (including             The modules describe the treatments available to
Sexual Assault Forensic Exams, Post Exposure               Volunteers at all posts, specifying those listed in
Prophylaxis for HIV Exposure, Screening for                the Act. It also describes steps Volunteers should
Sexually Transmitted Diseases, and Pregnancy               take in each country to receive appropriate
Testing)                                                   treatments and the steps staff will take to provide
                                                           treatment to Volunteers.
Medical Evacuation (MedEvac) Procedures                    The modules describe steps Volunteers should take
                                                           in each country to receive appropriate treatments
                                                           and the steps staff will take to medically evacuate
                                                           Volunteers, if necessary.
Information Regarding a Victim’s Right to Pursue           The modules describe steps Volunteers should take
Legal Action Against a Perpetrator                         in each country to receive guidance on pursuing
                                                           legal action against a perpetrator.

Information about treatments available in country for a sexual assault victim, medical evacuation
procedures, and a victim’s right to pursue legal action against a perpetrator is included in the
SAIRR training module. The SAIRR module presents this information without getting into
specific details such as the way law enforcement would typically handle a sexual assault in a
Volunteer’s country of service:

       If you are interested in reporting to the police, we will explain the process involved in filing a police report
       and how the investigation and prosecution will be conducted. You will not be alone in this. We will be with
       you every step of the way. Sometimes the investigative and judicial process may take a very long time and
       will most likely be very different from the systems and procedures you may be familiar with in the United
       States. But even if you leave the country, Peace Corps will continue to work with the police and
       prosecutors and we will keep you informed.

The SAAC’s 2012 report indicated that, “the training received by Volunteers related to their
right to legal action conforms to best practices in the field.” Peace Corps staff with expertise in
the field of sexual assault response and safety and security indicated that they believed more
detail would be inappropriate and potentially discourage reporting.




Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training                            16
       My only concern is that too many details can be a discouragement to not report even to PC [Peace Corps] if
       they feel the country is not going to do anything about it. I really want to be able to encourage reporting so
       they can get support, help S&S [the Office of Safety and Security], and help develop safety strategies.
       That’s my concern about too many details about the legal environment of the country.

       In reality what do they [trainees/Volunteers] need on MedEvac other than that they know the result? Is that
       training or is that sharing the information? I cannot believe they [Volunteers] want to sit through a 30
       minute session on how you get Medevac’d...My personal belief is some of this information would be a
       disincentive to reporting… Everything we have done is intended to get volunteers to come forward and get
       help. We do not want them to suffer in silence. It’s designed to create a comfortable atmosphere where they
       can talk to staff and staff can talk to them, rather than being scared off by these local legal issues.

In addition to the sexual assault training that the Peace Corps is required to deliver to all
applicants for enrollment during their PST programs, the 24 posts we examined provided a wide
range of trainings intended to address safety and security in a country-specific context. While
evaluating the effectiveness of these additional trainings was beyond the scope of this evaluation,
we noted that they included country-specific training on gender relations, risk-reduction
strategies, harassment and unwanted attention, transportation safety, and other safety and
security topics. Many of these training sessions pre-date the Kate Puzey Act, and have been part
of posts’ Volunteer training programs for many years. The content of these trainings go beyond
the requirements of the Kate Puzey Act. They reinforce key messages and provide additional
country-specific skills for Volunteers that may reduce their risk of sexual assault.

In developing its sexual assault training, the Peace Corps sufficiently consulted with experts
in the sexual assault field and incorporated their recommendations.

The Kate Puzey Act specifies that in developing its sexual assault risk-reduction and response
training, the Peace Corps “shall consult with and incorporate, as appropriate, the
recommendations and views of experts in the sexual assault field.” The Peace Corps consulted
with experts in the sexual assault field and incorporated their views and recommendations into
the design of its sexual assault training for Volunteers. We interviewed Peace Corps staff
involved in the training development as well as six of the experts who were consulted by the
Peace Corps. Both staff and experts indicated that experts from a variety of organizations in the
field of sexual assault were consulted from the early development stages of the training in 2010
to the implementation of the training in 2011. Experts reported that the Peace Corps solicited
their input multiple times on the content, structure, and language of the trainings. Experts
reviewed written slides and facilitator’s guides, attended training pilots and gave feedback, and
posts also piloted the trainings to draw their expertise from the field. The experts we interviewed
reported that their feedback had been taken into account and that Peace Corps’ approach gave
them access to a sufficient amount of expertise:

       Before the Kate Puzey Act was passed, I was invited to attend trainings along with other folks (OVC
       [Department of Justice, Office for Victims of Crime], DOD [Department of Defense], etc.) and I did that
       multiple times. They did a module, we provided feedback. I came in during a first iteration of the
       facilitation… [the] vast majority of our comments were incorporated.

       [I was contacted] back in 2008, to improve how Peace Corps deals with sexual assault… In general I think
       the way Peace Corps approached this design, by connecting to the resources they did, the coalitions, gave
       them access to other resources.



Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training                          17
The SAAC’s report also concluded that the agency had developed its sexual assault training in
consultation with experts:

       The research and development stage included interviews with more than fifteen experts from private,
       government, and non-government sectors, as well as research collected from numerous relevant sources
       both internally and externally…Each group provided critical feedback that led to revisions and
       improvements. The overall development of the training curriculum was a collaborative and thorough
       process, which contributed to a final product that conforms to best practices.

IMPLEMENTATION AND EFFECTIVENESS OF SEXUAL ASSAULT TRAINING

The Kate Puzey Act requires the agency to provide sexual assault training to all Volunteers:

       In General.--As part of the training provided to all volunteers under section 8(a), the President shall
       develop and implement comprehensive sexual assault risk-reduction and response training that, to the
       extent practicable, conforms to best practices in the sexual assault field (§ 8A(a)).

In order to review the implementation and effectiveness of Peace Corps’ sexual assault training,
we interviewed staff who had facilitated the training for applicants and Volunteers at 24 posts.
We gathered and reviewed sexual assault-related training sessions as well as other post-specific
safety and security training materials used by the posts. We examined the posts’ survey results
from the 2012 Annual Volunteer Survey that included questions about the effectiveness of sexual
assault training. We also interviewed Peace Corps staff at the agency’s headquarters with
knowledge of the sexual assault training, including developers of the training.

The Peace Corps provided sexual assault training to all 27-month Volunteers, in compliance
with section 8A.

In October 2011 the deputy director instructed all country directors to ensure that all applicants
receive sexual assault training prior to swearing-in as Volunteers. Based on our review of
training schedules at 24 posts and interviews with Peace Corps staff we verified that the agency
has been providing sexual assault training to all applicants through the PST programs in their
country of service.

PCRVs received inconsistent exposure to sexual assault training required under section 8A.

PCRVs engage in shorter-term assignments that usually range from three months to a year; they
are typically returned Peace Corps Volunteers. Of the 24 posts we examined, 14 had PCRVs;
five had just one, and the other posts had between two and seven.

PCRVs received inconsistent exposure to the sexual assault training. The approaches posts took
to providing sexual assault training to PCRVs varied from a 30-minute safety and security
briefing that did not include any sexual assault training, to a complete read-through of each
sexual assault training module. We found no consistency in the approach posts were taking to
providing sexual assault training to PCRVs. As a result, some PCRVs may not be as well
prepared to mitigate their risk of sexual assault as are 27-month Volunteers who participated in
the full sexual assault training.



Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training                         18
There were several reasons why sexual assault training for PCRVs was inconsistent. PCRVs
rarely arrive in their country of service as part of a larger training group, or during the period of
time dedicated to PST for 27-month Volunteers, when sexual assault training was delivered.
PCRVs arrived either one-at-a time or as part of a small group. The amount of time available in
country to orient PCRVs to their country of service was also far shorter than the time available
for applicants to the 27-month Volunteer program. PCRV training programs lasted from one to
two weeks depending on the experience and needs of the particular PCRV, whereas 27-month
Volunteers went through a nearly three-month training program before taking the oath to serve as
Volunteers. The current design of the sexual assault training modules assumed that all trainees
would be engaged in a multi-week PST program. The sessions included many group-based
activities and discussions that would not work as well with just one or two PCRVs.


                We recommend:

                2. That the associate director for safety and security and the director of
                   Peace Corps Response establish minimum sexual assault training
                   requirements that conform to the Kate Puzey Act for all Volunteers
                   placed through Peace Corps Response.


Staff opinion and Volunteer survey results from 2012 indicated that sexual assault training
was effective.

The Kate Puzey Act requires OIG to provide a report to Congress “evaluating the effectiveness
and implementation of the sexual assault risk-reduction and response training developed under
section 8A.”

Staff we interviewed described the sexual assault training as generally effective. Below are four
comments from different field staff we interviewed expressing confidence in the effectiveness of
the sexual assault training:
       The awareness training is strong in that people/trainees become aware that a threat can also be a type of
       assault—so it has raised awareness in this area. On the impact session, trainees come to know that they
       must report the assault because the impact is not limited to them alone—it can affect their family and
       broader community. The personal security session strength is RADAR. Volunteers use this skill all over
       after this. In the taxi they use it; at a party they use it. This is a truly important tool not just for Volunteers
       but also for staff. BIT—the strong point of that one is that at the end when they ask Volunteers if they feel
       like they have a tool they can use to prevent an assault, they say yes. We have eye signals and other signals
       and strategies to look out for and protect each other. They have designated non-drinkers at the party. This
       has helped prevention.

       BIT is something that they [Volunteers] can use for their whole life.

       Overall, they are really good sessions. It’s important that we have them. Some Volunteers have used the
       BIT and have helped their fellow Volunteers.

       The RADAR model, the personal security and risk-reduction was a really great one. The gallery walk [in
       the sexual assault awareness module], and the bystander awareness module was helpful and well designed.




Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training                               19
Survey results from more than 1,000 Volunteers who completed the agency’s Annual Volunteer
Survey in 2012 after having received sexual assault training indicated that Volunteers judged the
sexual assault training to have been effective. When asked how effective their training had been,
over 90 percent of Volunteers rated the training favorably. In addition, over 1,100 Volunteers
(one third of those who had received Bystander Intervention Training), reported that they had
used BIT on at least one occasion since their training.

                            Table 4. 2012 Annual Volunteer Survey Responses: PST
                                                                                                     Percentage of Favorable
     How effective was your PST training in the following areas?
                                                                                                           Responses*
Identifying tactics used by sexual assault assailants in your country of
service                                                                                                            94%
How to report a crime to the Peace Corps                                                                           99%
How the Peace Corps responds to Volunteers who experience crime                                                    98%
Support services for Volunteers who experience crime                                                               99%
Services provided by the Peace Corps Office of Victim Advocacy                                                     97%
The Peace Corps Commitment to Sexual Assault Victims                                                               98%
To what extent did BIT provide you with the knowledge to develop
intervention strategies appropriate to your local context?                                                         88%

*Volunteers’ favorable responses included ratings of “adequately,” “considerably,” or “exceptionally” effective.

            Table 5. 2012 Annual Volunteer Survey Responses: Bystander Intervention
To what extent have you used the bystander intervention strategies
                                                                                                       Percent       Number
                      since your training?
Not at all                                                                                               66%              0
Once                                                                                                     15%             510
2-3 Times                                                                                                14%             476
3-5 Times                                                                                                 2%              68
More than 5 Times                                                                                         2%              68

The agency was in the process of developing a more robust approach to evaluating the
effectiveness of sexual assault training using results from an online learning course that tests
Volunteers’ knowledge gains and skills usage. Data from this system was not available at the
time of fieldwork.

We were unable to assess in-depth the effectiveness of sexual assault training due to time and
data limitations. Field work for this evaluation occurred soon after the agency began
implementing standardized sexual assault training. Key aspects of the sexual assault policy have
not been issued and thus Volunteers have not received the corresponding training. More time
needs to pass in order for an evaluation to assess what influence sexual assault training has had
on reducing Volunteers’ risk of sexual assault, and for more data to be gathered from Volunteers
who have participated in sexual assault training. The Kate Puzey Act requires us to provide
Congress a follow-up report in 2016. That report will provide more information and analysis of
the effectiveness of sexual assault training.




Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training                                       20
               We recommend:

               3. That the Director ensure that the agency has in place the systems and
                  support required to evaluate the effectiveness of sexual assault training.




Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training   21
                OBJECTIVE, SCOPE, AND METHODOLOGY
The purpose of OIG is to prevent and detect fraud, waste, abuse, and mismanagement, and to
promote economy, effectiveness, and efficiency in government. In February 1989, the Peace
Corps OIG was established under the Inspector General Act of 1978 and is an independent entity
within the Peace Corps. The Inspector General is under the general supervision of the Peace
Corps Director and reports both to the Director and Congress.

The OIG Evaluation Unit within OIG provides senior management with independent evaluations
of the management and operations of the Peace Corps, including overseas posts and domestic
offices. OIG evaluators identify best practices and recommend program improvements to comply
with Peace Corps policies.

The Evaluation Unit announced its evaluation of the effectiveness and implementation of the
sexual assault training required by the Kate Puzey Act on November 14, 2012. We used the
following researchable questions to guide our work:

      Has the agency informed applicants about crimes and risks facing Volunteers?
      Has it provided applicants with all information required by the Act?
      Is the Peace Corps’ sexual assault training comprehensive and in-line with best practices?
      Did the Peace Corps sufficiently consult with experts in the sexual assault field and
       incorporate their recommendations in the design of sexual assault training?
      Has sexual assault training been tailored to the Volunteers’ country of service?
      Have Volunteers received sexual assault training, and was the training effective?

The evaluation team conducted the preliminary research portion of the evaluation from
November through December 2012. This research included a review of agency documents
provided by headquarters and post staff, interviews with headquarters staff, and a literature
review on the issue of sexual assault reduction and response programs and trainings. This review
included resources from the National Sexual Violence Research Center, the Rape Abuse and
Incest National Network, the Air Force, and CDC, among others. CDC’s guidance was
particularly useful because its guidance was flexible enough that it could be applied in Peace
Corps’ context.

Fieldwork occurred from January through April 2012, and included interviews with agency
managers and staff in the offices of: Safety and Security, Health Services, Overseas
Programming and Training Support, Global Operations, Victim Advocacy, Volunteer
Recruitment and Selection, Peace Corps Response, and General Counsel. In addition, we
interviewed experts in the field of sexual assault risk-reduction and response and members of the
SAAC.

We analyzed results from the safety and security section of the agency’s 2012 Annual Volunteer
Survey. Eighty-seven percent of eligible Volunteers worldwide responded to the survey,
including more than 1,000 Volunteers who had received sexual assault training since November
of 2011. Due to the high number of Volunteers who responded to the 2012 survey, and because


Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training       22
the survey included relevant questions specifically about the sexual assault training, OIG
determined that it could use the survey results and did not need to independently survey
Volunteers for the purpose of gathering similar data.

We conducted telephone interviews with 92 staff at 24 posts that had direct experience delivering
sexual assault risk-reduction and response training. We also reviewed country-specific safety
training materials from those posts. The selection of 24 posts included eight posts from each of
the three regions: Africa, Europe, Mediterranean, and Asia, and Inter-America and Pacific (see
Table 6). The selection, made in consultation with regional safety and security staff, included
posts with the highest average numbers and the highest average rates of rapes and major sexual
assaults between 2009 and 2011.

                            Table 6. Peace Corps Posts Interviewed
                Peace Corps Post                     Peace Corps Region
                      Benin            Africa Operations
                      Kenya            Africa Operations
                     Lesotho           Africa Operations
                  Mozambique           Africa Operations
                     Namibia           Africa Operations
                  Sierra Leone         Africa Operations
                       Togo            Africa Operations
                     Zambia            Africa Operations
                     Armenia           Europe, Mediterranean, and Asia Operations
                   Azerbaijan          Europe, Mediterranean, and Asia Operations
                    Indonesia          Europe, Mediterranean, and Asia Operations
                      Jordan           Europe, Mediterranean, and Asia Operations
                Kyrgyz Republic        Europe, Mediterranean, and Asia Operations
                    Moldova            Europe, Mediterranean, and Asia Operations
                    Morocco            Europe, Mediterranean, and Asia Operations
                     Ukraine           Europe, Mediterranean, and Asia Operations
                   Costa Rica          Inter-America and the Pacific Operations
               Dominican Republic      Inter-America and the Pacific Operations
                Eastern Caribbean      Inter-America and the Pacific Operations
                     Ecuador           Inter-America and the Pacific Operations
                        Fiji           Inter-America and the Pacific Operations
                   Guatemala           Inter-America and the Pacific Operations
                    Nicaragua          Inter-America and the Pacific Operations
                       Peru            Inter-America and the Pacific Operations

This evaluation was conducted in accordance with the Quality Standards for Inspections, issued
by the Council of the Inspectors General on Integrity and Efficiency. The evidence, findings, and
recommendations provided in this report have been reviewed by agency stakeholders affected by
this review.




Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training      23
                                INTERVIEWS CONDUCTED
As part of this evaluation, interviews were conducted with 28 representatives from Peace Corps
headquarters in Washington DC, and seven other stakeholders and experts.

                                         Table 7: Interviews
                       Position                                    Office or Agency
    Senior Program Specialist                         United States Department of Justice
                                                      Office on Violence Against Women
    Grant Program Specialist                          United States Department of Justice
                                                      Office on Violence Against Women
    Deputy Assistant Director for Europe/Eurasia      International Criminal Investigative
                                                      Training Assistance Program, Department
                                                      of Justice
    Major                                             Naval Medical Center San Diego
    Victim Services Manager                           Office for Victim Assistance, Federal
                                                      Bureau of Investigation
    Vice President for Victim Services                Rape Abuse and Incest National Network
                                                      (RAINN)
    Director of Public Policy                         The National Center for Victims of Crime
                                                      (NSVC)
    Regional Security Advisor                         Peace Corps/Africa Operations
    Regional Security Advisor                         Peace Corps/Europe, Mediterranean, and
                                                      Asia Operations
    Regional Security Advisor                         Peace Corps/Inter-America and the Pacific
                                                      Operations
    Regional Programming, Training & Evaluation       Peace Corps/Inter-America and the Pacific
    Advisor                                           Operations
    General Counsel                                   Peace Corps/General Counsel
    Senior Advisor                                    Peace Corps/Office of Global Operations
    Expert                                            Peace Corps/Office of Health
                                                      Services/Office of Medical Services
    Director                                          Peace Corps/Office of Victim Advocacy
    Chief of Operations                               Peace Corps/Office of Volunteer
                                                      Recruitment and Selection
    Volunteer Delivery System Expert                  Peace Corps/Office of Volunteer
                                                      Recruitment and Selection
    Chief of Epidemiology                             Peace Corps/Office of Volunteer Support
    Programming & Training Specialist                 Peace Corps/Overseas Programming and
                                                      Training Support
    Chief of Training Unit                            Peace Corps/Overseas Programming and
                                                      Training Support
    Lead Training Specialist (Cross-Cultural &        Peace Corps/Overseas Programming and
    Diversity)                                        Training Support
    Technical Training Specialist                     Peace Corps/Overseas Programming and
                                                      Training Support
    Programming Specialist                            Peace Corps/Peace Corps Response
    Management Analyst                                Peace Corps/Peace Corps Response


Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training          24
    Associate Director for Safety and Security        Peace Corps/Safety and Security
    Senior Advisor, Sexual Assault Risk-reduction     Peace Corps/Safety and Security/Overseas
    and Response Program                              Operations
    Monitoring & Evaluation Specialist (Safety and    Peace Corps/Safety and Security/Overseas
    Security)                                         Operations
    Peace Corps Safety and Security Officer-HQ        Peace Corps/Safety and Security/Overseas
                                                      Operations
    Peace Corps Safety and Security Officer-          Peace Corps/Safety and Security/Overseas
    Overseas (4)                                      Operations
    Lead Security Specialist                          Peace Corps/Safety and Security/Overseas
                                                      Operations
    Chief                                             Peace Corps/Safety and Security/Overseas
                                                      Operations
    Data Analyst                                      Peace Corps/Safety and Security/Overseas
                                                      Operations/ Crime Statistics And Analysis
                                                      Unit
   Data as of June 2013.




Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training          25
                          LIST OF RECOMMENDATIONS
WE RECOMMEND:

1. That the associate director for the Office of Safety and Security put procedures in place to
   ensure that at the time applicants receive their invitation for service, all have received the
   most recent information on crimes and risks specific to their country of service.

2. That the associate director for safety and security and the director of Peace Corps Response
   establish minimum sexual assault training requirements that conform to the Kate Puzey Act
   for all Volunteers placed through Peace Corps Response.
3. That the Director ensure that the agency has in place the systems and support required to
   evaluate the effectiveness of sexual assault training.




Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training            26
                      APPENDIX A: LIST OF ACRONYMS

           BIT          Bystander Intervention Training
           CDC          Centers for Disease Control and Prevention
           MedEvac      Medical Evacuation
           OIG          Office of Inspector General
           OVA          Office of Victim Advocacy
           PCR          Peace Corps Response
           PCRV         Peace Corps Response Volunteer
           PST          Pre-Service Training
           RADAR        Recognize, Assess, Decide, Act, Reassess
           SAAC         Sexual Assault Advisory Council
           SAIRR        Sexual Assault: Impact, Reporting, and Response
           SARL         Sexual Assault Response Liaison
           SS           Office of Safety and Security




Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training   27
         APPENDIX B: EXAMPLE OF A POST CRIME PROFILE




Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training   28
Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training   29
Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training   30
Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training   31
     APPENDIX C: SUMMARY OF SEXUAL ASSAULT TRAINING

                   Personal Security and                 Bystander Intervention Training
                      Risk-Reduction
          Key learning objectives:                      Key learning objectives:
           Give examples of situations in which        Analyze the Bystander Phenomenon,
              specific Personal Security Strategies        what it is and why it occurs.
              could be employed.                        Assess inappropriate sexual behavior
           Describe conditions that increase the          along a continuum of behaviors.
              likelihood of being a victim of common    Develop ways to intervene safely in
              crimes.                                      inappropriate and potentially harmful
           Outline risk-reduction strategies for          situations.
              common crimes.
           Teach and practice RADAR principles.

          Best practices confirmed by experts or       Best practices confirmed by experts or
          other trainings                              other trainings:
           Presents risk-reduction strategies for      Gives volunteers tools to intervene on
              use by volunteers.                           behalf of another volunteer in a
           Provides risk awareness and response           risky situation.
              tool: RADAR (Recognize, Assess,
              Decide, Act, Reassess).


                Sexual Assault Awareness                 Sexual Assault: Impact Reporting
                                                                  and Response
          Key learning objectives:                     Key learning objectives:
           Distinguish between myths and facts         Recognize examples of how sexual
             regarding sexual assault.                     assault can impact various aspects of
           Compare and contrast American and              the victim’s life.
             host nation sex signals.                   Explain the importance of reporting
           Outline tactics used by rapists.               sexual assaults.
           Propose defensive strategies to counter     Outline the actions a victim should take
             assailant tactics.                            after an assault.
                                                        Summarize Peace Corps sexual assault
                                                           response procedures.

          Best practices confirmed by experts or       Best practices confirmed by experts or
          other trainings                              other trainings:
           Provides information on the impact of       Describes the impact of sexual assault.
              sexual assaults.                          Describes response procedures in the
           Outlines common offender tactics.              case of a sexual assault by the victim
           Provides specific risk mitigation tools        and Peace Corps.
              for use by volunteers.
           Provides country specific information
              on sex signals.




Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training            32
   APPENDIX D: AGENCY’S RESPONSE TO THE PRELIMINARY
                        REPORT




Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training   33
Recommendation 1:
That the associate director for the Office of Safety and Security put procedures in place to
ensure that at the time applicants receive their invitation for service, all have received the
most recent information on crimes and risks specific to their country of service.

       Concur
       The Office of Safety and Security has created Country Profile Pages for each PC/Post that
       outlines the total number of crimes, by PC crime classification, reported by Volunteers as
       well as the corresponding incidence rates for both the previous calendar year and the
       previous five years combined. In addition, the Profile Pages include risk factors and general
       crime characteristics specific to each post.

       Additionally, prospective applicants may access country-specific crime data through the
       agency’s website before deciding whether to apply to the Peace Corps, or whether to accept
       an invitation. The Office of VRS directs potential applicants to the agency’s website, to the
       section titled: Safety and Security Highlights to Help You Prepare for Peace Corps Service and to Safety
       and Security Global Statistical Report of Crimes Against Volunteers where they can access the most
       current country-specific crime information, including crime statistics and related
       information, before deciding whether to apply. This access will continue as VRS modifies its
       processes so that applicants may apply to or accept an invitation to a particular country or
       program.

       Candidates invited to serve as Peace Corps Volunteers are routinely provided the specific
       Post’s Welcome Book (.pdf format, attached to the applicant’s invitation) before they accept
       an invitation. Each Welcome Book includes country-specific information about risks at the
       Post, as well as a link to current Peace Corps crime statistics for that Post. The
       communication extending the invitation includes a link to the Safety and Security Highlights
       document for the country of service (country profile page). It also includes the Volunteer
       Handbook and other information about the specific volunteer assignment.


       Links submitted:
       Safety and Security Highlights to Help You Prepare for Peace Corps Service
       http://files.peacecorps.gov/multimedia/pdf/documents/safety_and_security_highlights.pdf
       www.peacecorps.gov/index.cfm?shell=learn.safety.safeandsec
       Safety and Security Global Statistical Report of Crimes Against Volunteers
       http://files.peacecorps.gov/multimedia/pdf/policies/volsafety2011.pdf

       Documents to be Submitted:
         • Country Risk Profile Pages
         • Sample Updated Welcome Books

       Status and Timeline for Completion:
           • October 2013




                                                      2
Recommendation 2:
That the associate director for Safety and Security and the director of Peace Corps Response
establish minimum sexual assault training requirements that conform to the Kate Puzey Act
for all Volunteers placed through Peace Corps Response.


       Concur
       A standardized sexual assault training curriculum for two year Volunteers was developed and
       launched by the Office of Safety and Security in August 2011 and updated in 2013 to reflect
       recent changes in Agency policy and procedures. All Volunteers/Trainees are required to
       receive this standardized training prior to swearing-in. PCR will utilize these standard
       learning objectives from the standardized sexual assault training to develop a training
       curriculum that is appropriate for PCRVs with input from OVA and OSS. This requirement
       will be codified in a Safety and Security Instruction (SSI) by January 2014.

       Documents to be Submitted:
         • SSI for PCRV Sexual Assault Training

       Status and Timeline for Completion:
              • January 2014

Recommendation 3:
That the Director ensure that the agency has in place the systems and support required to
evaluate the effectiveness of sexual assault training.

       Concur
       The Office of Safety and Security has developed, and is in the process of implementing, a
       monitoring and evaluation plan for the Volunteer PST sexual assault training. OSS
       developed and conducts regular fidelity checks on the consistency of training delivery. OSS
       piloted an online evaluation tool in the Spring 2013. The pilot assessed the feasibility of
       using an online tool during PST and the extent the tool could measure learning objectives.
       These assessments measure if the PCVs are meeting the learning objectives for the global
       core modules, and how well they can apply that knowledge in a scenario. Feedback from the
       pilot will inform the final development and roll out of a training evaluation tool to assess
       PCV learning by March 2014.

       Documents to be Submitted:
            • PST assessment tool launched based on revised PST modules


       Status and Timeline for Completion:
              • Revised PST modules; anticipated roll out in May 2014
              • PST assessment tool under reconstruction based on existing PCV input and
                 future post input for logistics; scheduled for roll out in March 2014 with revised
                 PST modules



                                                3
                         APPENDIX E: OIG COMMENTS
Management concurred with all three recommendations. In its response, management described
actions it is taking or intends to take to address the issues that prompted each of our
recommendations. We wish to note that in closing recommendations, we are not certifying that
the agency has taken these actions or that we have reviewed their effect. Certifying compliance
and verifying effectiveness are management’s responsibilities. However, when we feel it is
warranted, we may conduct a follow-up review to confirm that action has been taken and to
evaluate the impact.

All three recommendations remain open. We will review and consider closing recommendations
2 and 3 when the documentation reflected in the agency’s response to the preliminary report is
received. For recommendation 1, additional documentation is required. This recommendation
will remain open pending confirmation from the chief compliance officer that the documentation
reflected in our analysis below is received.

Recommendation 1:
That the associate director for the Office of Safety and Security put procedures in place to
ensure that at the time applicants receive their invitation for service, all have received the
most recent information on crimes and risks specific to their country of service.

       Concur
       The Office of Safety and Security has created Country Profile Pages for each PC/Post
       that outlines the total number of crimes, by PC crime classification, reported by
       Volunteers as well as the corresponding incidence rates for both the previous calendar
       year and the previous five years combined. In addition, the Profile Pages include risk
       factors and general crime characteristics specific to each post.

       Additionally, prospective applicants may access country-specific crime data through the
       agency’s website before deciding whether to apply to the Peace Corps, or whether to
       accept an invitation. The Office of VRS directs potential applicants to the agency’s
       website, to the section titled: Safety and Security Highlights to Help You Prepare for
       Peace Corps Service and to Safety and Security Global Statistical Report of Crimes
       against Volunteers where they can access the most current country-specific crime
       information, including crime statistics and related information, before deciding whether
       to apply. This access will continue as VRS modifies its processes so that applicants may
       apply to or accept an invitation to a particular country or program.

       Candidates invited to serve as Peace Corps Volunteers are routinely provided the specific
       Post’s Welcome Book (.pdf format, attached to the applicant’s invitation) before they
       accept an invitation. Each Welcome Book includes country-specific information about
       risks at the Post, as well as a link to current Peace Corps crime statistics for that Post. The
       communication extending the invitation includes a link to the Safety and Security
       Highlights document for the country of service (country profile page). It also includes the
       Volunteer Handbook and other information about the specific volunteer assignment.


Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training           36
       Links submitted:
       Safety and Security Highlights to Help You Prepare for Peace Corps Service
       http://files.peacecorps.gov/multimedia/pdf/documents/safety_and_security_highlights.pdf
       www.peacecorps.gov/index.cfm?shell=learn.safety.safeandsec
       Safety and Security Global Statistical Report of Crimes against Volunteers
       http://files.peacecorps.gov/multimedia/pdf/policies/volsafety2011.pdf

       Documents to be Submitted:
       • Country Risk Profile Pages
       • Sample Updated Welcome Books

       Status and Timeline for Completion:
       • October 2013

       OIG Analysis: Thank you for your response explaining steps planned or already taken to
       address the recommendation. In order to close this recommendation, please submit
       documentation that describes the procedures put in place to ensure that updates are
       regularly carried out for all relevant welcome books, including information about risks at
       the post and a link to the most recent Peace Corps crime statistics for that post. We will
       review a random sample of country risk profile pages and welcome books prior to closing
       this recommendation.




Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training      37
             APPENDIX F: EVALUATION COMPLETION AND
                          OIG CONTACT

EVALUATION                     This evaluation was conducted under the direction of
COMPLETION                     Assistant Inspector General for Evaluations Jim O’Keefe
                               by Senior Evaluators Jerry Black and Reuben Marshall,
                               and Evaluation Apprentice Tim Shaw. Additional
                               contributions were made by Lisa Chesnel and Logan
                               Davis.




                               Jim O’Keefe
                               Assistant Inspector General for Evaluations

OIG CONTACT                    Following issuance of the final report, a stakeholder
                               satisfaction survey will be distributed. If you wish to
                               comment on the quality or usefulness of this report to help
                               us improve our products, please contact Assistant
                               Inspector General for Evaluations Jim O’Keefe at
                               jokeefe@peacecorps.gov or 202.692.2904.




Final Evaluation Report: Peace Corps Sexual Assault Risk Reduction and Response Training     38
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                          Contact OIG

                         Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                   OIG@peacecorps.gov
          Web Form:                peacecorps.gov/OIG/contactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129



                     For General Information:
          Main Office:             202.692.2900
          Website:                 peacecorps.gov/OIG
            Twitter:               twitter.com/PCOIG
